Case: 20-5448

Document: 20-2

Filed: 02/05/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 20-5448
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CHRISTOPHER JERMAINE KELLEY,
Petitioner-Appellant,

)
)
)

UNITED STATES OF AMERICA,

)
)
)
)

v.

Respondent-Appellee.

FILED

Feb 05, 2021
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF
TENNESSEE

)
)

ORDER
Before: NORRIS, WHITE, and BUSH, Circuit Judges.
Christopher Jermaine Kelley, a pro se federal prisoner, appeals a district court judgment
denying his motion to vacate his sentence under 28 U.S.C. § 2255. The case has been referred to
a panel of the court that, upon examination, unanimously agrees that oral argument is not needed.
See Fed. R. App. P. 34(a).
In 2017, Kelley pleaded guilty to being a felon in possession of a firearm, in violation of
18 U.S.C. §§ 922(g)(1) and 924. The district court sentenced him to 97 months of imprisonment.
Kelley did not appeal.
In September 2018, Kelley filed a § 2255 motion and a supplement, claiming that:
(1) counsel was ineffective during the plea proceedings and coerced him into pleading guilty; and
(2) the district court erred when it enhanced his offense level pursuant to USSG § 2K2.1(a)(1).
The government opposed the motion. In December 2019, Kelley filed a supplemental motion,
adding a claim that: (3) his conviction is invalid in light of Rehaifv. United States, 139 S. Ct. 2191
(2019).
The district court denied the § 2255 motion, concluding in relevant part that Kelley’s
reliance on Rehaif did not warrant relief because: (1) the case was decided twenty months after

Case: 20-5448

Document: 20-2

Filed: 02/05/2021

Page: 2

No. 20-5448
-2Kelley’s conviction became final and is not retroactively applicable to cases on collateral review;
and (2) free-standing claims of actual innocence are not cognizable in a § 2255 proceeding. In
addition, the district court noted that Kelley’s argument that he was unaware of his status as a
person prohibited from possessing a firearm was “unconvincing” because the prohibition applies
to persons “previously convicted of a crime punishable by imprisonment for a term exceeding one
year,” and Kelley had previously served approximately six years of imprisonment for attempted
second-degree murder and robbery. Kelley sought a certificate of appealability (“COA”) with
respect to his claim that his guilty plea and conviction are invalid in light of Rehaif, and this court
granted him a COA on that issue.
On appeal, Kelley argues that the district court erred when it rejected his Rehaif claim after
concluding that the holding in Rehaifwas not retroactively applicable to his case. Kelley maintains
that his guilty plea is invalid because he did not understand an essential element of the charged
offense and the district court did not give him notice of the required element, resulting in a
“structural error” in his guilty plea. He also argues that the district erred when it determined, in
the alternative, that the record established that the “knowledge of status” element was met by virtue
of Kelley’s knowledge of his prior felonies. He contends that the district court lacked the authority
to determine that an essential element of the charged offense was met by evidence set forth in the
record because the evidence was not presented to a jury, and Kelley was not afforded an
opportunity to challenge the evidence.
Initially, the government argues that Kelley procedurally defaulted his Rehaif claim by
failing to assert it on direct appeal. The government waived the procedural-default defense,
however, by not asserting it in a timely fashion in the district court. See United States v. Frady,
456 U.S. 152, 167 (1982). The government contends that it did not waive the defense because the
district court rejected Kelley’s Rehaif claim, first raised in his supplemental motion, without
seeking a response from the government. But the district court did not issue its memorandum
opinion until approximately four months after Kelley submitted his supplement to the § 2255
motion. In that time, the government neither filed a response nor requested an extension of time
to file a response, as it had repeatedly done in connection with the original § 2255 motion.

Case: 20-5448

Document: 20-2

Filed: 02/05/2021

Page: 3

No. 20-5448
-3When considering a district court’s denial of a § 2255 motion, we review factual findings
for clear error and legal conclusions de novo. Braden v. United States, 817 F.3d 926, 929 (6th Cir.
2016). To obtain relief under § 2255, a prisoner “must show ‘(1) an error of constitutional
magnitude; (2) a sentence imposed outside the statutory limits; or (3) an error of fact or law that
was so fundamental as to render the entire proceeding invalid.’” McPhearson v. United States,
675 F.3d 553, 559 (6th Cir. 2012) (quoting Mallett v. United States, 334 F.3d 491, 496-97 (6th
Cir. 2003)).
The parties agree that the district court erred when it concluded that Rehaif was not
retroactively applicable to cases on collateral review. In Rehaif, the Supreme Court held that, “in
prosecutions under § 922(g) ... the Government must prove that the defendant knows of his status
as a person barred from possessing a firearm.” 139 S. Ct. at 2195. Similar to the Court’s decisions
in Bailey v. United States, 516 U.S. 137 (1995), and Burrage v. United States, 571 U.S. 204 (2014),
the Court in Rehaif interpreted a criminal statute to require proof of an additional element to
convict a defendant. In Bailey, the Court held that, to convict a defendant under 18 U.S.C.
§ 924(c)(1) for “using” a firearm, the government must show “active employment of the firearm.”
516 U.S. at 144. The Court later ruled that, because Bailey held “that a substantive federal criminal
statute does not reach certain conduct,” it was a substantive rule and thus applied retroactively to
cases on collateral review. Bousley v. United States, 523 U.S. 614, 620 (1998). And in Burrage,
the Court held that, to convict a defendant under 21 U.S.C. § 841(b)(1) for a drug crime in which
“death or serious bodily injury results from the use of such substance,” the government must show
that the use of the drug is a but-for cause of the death, rather than merely a contributing cause. 571
U.S. at 218-19. We have held that Burrage applies retroactively to cases on collateral review
because it was a substantive rule that narrowed the scope of a criminal statute. Harrington v.
Ormond, 900 F.3d 246, 249 (6th Cir. 2018). In Bailey, Burrage, and Rehaif, the Supreme Court
interpreted a criminal statute to require proof of an additional element to convict a defendant.
Thus, just as Bailey and Burrage announced new substantive rules that apply retroactively to cases
on collateral review, so did Rehaif See Schriro v. Summerlin, 542 U.S. 348, 354 (2004) (“A
decision that modifies the elements of an offense is normally substantive rather than procedural.

Case: 20-5448

Document: 20-2

Filed: 02/05/2021

Page: 4

No. 20-5448
-4-

New elements alter the range of conduct the statute punishes, rendering some formerly unlawful
conduct lawful or vice versa.”).
Nonetheless, we affirm the denial of the § 2255 motion based on the district court’s
alternative ruling that Kelley is not entitled to relief under Rehaif because he acknowledged that
he had prior felony convictions for which he had served terms of imprisonment exceeding one
year. See Slusser v. United States, 895 F.3d 437, 439 (6th Cir. 2018); Cox v. United States, 695 F.
App’x 851, 853 (6th Cir. 2017).
In order to obtain a conviction under § 922(g)(1), the government must show that: (1) the
defendant had a previous felony conviction; (2) the defendant knew he had a previous felony
conviction; (3) the defendant knowingly possessed the firearm; and (4) the firearm traveled in or
affected interstate commerce. See Rehaif, 139 S. Ct. at 2200; United States v. Ward, 957 F.3d 691,
696 (6th Cir. 2020). Kelley has failed to show that the change created by Rehaif rendered him
actually innocent of his crime of conviction. Shortly after the Supreme Court decided Rehaif, we
clarified that the government is not required to show that a defendant knew that convicted felons
are prohibited from possessing firearms under § 922(g)(1). See United States v. Bowens, 938 F.3d
790, 797-98 (6th Cir. 2019), cert, denied, 140 S. Ct. 2572 (2020). Rather, the government need
only prove that a defendant knew that he was a convicted felon. Id. Kelley does not argue that he
was unaware that he stood convicted of numerous felonies. Rather, during his plea hearing, he
acknowledged that the prosecutor accurately summarized his criminal history, including his prior
felony convictions for attempted second-degree murder, aggravated assault, and robbery. In
addition, the presentence report reflects that Kelley was on parole for his attempted second-degree
murder conviction when he committed the charged offense in this case. In these circumstances,
Rehaif does not warrant § 2255 relief.

'

Accordingly, the district court’s judgment is AFFIRMED.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 20-5448

Document: 22-1

Filed: 05/06/2021

Page: 1

No. 20-5448
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CHRISTOPHER JERMAINE KELLEY,

FILED
May 06, 2021
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

ORDER

BEFORE: NORRIS, WHITE, and BUSH, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

IN THE UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
CHRISTOPHER J. KELLEY

)
)
)

Petitioner,

)
v.

NO. 3:18-cv-00908

)

)
UNITED STATES OF AMERICA,
Respondent

JUDGE RICHARDSON

)
)
)

MEMORANDUM OPINION
Petitioner, Christopher J. Kelley, commenced this action by filing a Motion Under 28
U.S.C. § 2255 To Vacate, Set Aside, or Correct Sentence (Doc. No. 1, “Petition”). Via the Petition,
he seeks to overturn his conviction and 97-month sentence in his underlying criminal case (No.
3:16-cr-00133) on one count of possession of a firearm (a Glock Model 22 .40 caliber pistol) by a
convicted felon in violation of 18 U.S.C. §§ 922(g)(1) & 924. In the Petition, in each of his two
separate claims, he asserts that he was provided ineffective assistance by the attorney (Richard
Tennent, “prior counsel”) who represented Petitioner in his underlying criminal case. In the
Petition, he also claims that his base offense level was set too high, because it was based on his
having two prior convictions for “crimes of violence” for purposes of U.S.S.G. § 2K2.1(a)(1)—
which sets a base offense level of 26 in certain cases for defendants having two prior “crimes of
violence”—that in fact are not “crimes of violence.”
The Government filed a response in opposition to the Petition (Doc. No. 26), as well as a
declaration of Petitioner’s prior counsel (Doc. No. 26-1). Petitioner subsequently filed what he
captioned in pertinent part as a “Supplemental Brief ” (Doc. No. 27), which served to assert the
below-referenced claim based on United States v. Rehaif, 139 S. Ct. 2191 (2019). The Court will

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 1 of 18 PagelD #: 138

treat this document as amending his Petition, so that the Petition as amended comprises the two
claims for ineffective assistance of counsel, the claim that his guideline range was calculated
incorrectly, and the Rehaif claim.
Notably, in terms of relief requested, Petitioner asks the Court “[t]o vacate sentence [or] in
the alternative, grant an evidentiary hearing.” (Doc. No. 1 at 12). The Court notes, however, that
his claims of ineffective assistance of counsel, and his Rehaif claim, challenge the underpinning
of the conviction and would (if they were valid) naturally call for not just resentencing, but also
vacatur of his conviction as well. The Court keeps this in mind in assessing Petitioner’s claims.
For the reasons stated herein, the Petition, as amended, will be DENIED, and this action
will be DISMISSED.
BACKGROUND 1
On June 15, 2016, a two-count indictment was filed against Petitioner and a co-defendant.
Petitioner was charged (by himself) only in Count One, which alleged the above-described
violation of Title 18, United States Code, Section 922(g)(1). (R. 13).
On May 16, 2017, Petitioner pled guilty pursuant to a plea agreement under Fed. R. Crim
P. 11(c)(1)(C), which set forth a joint sentencing recommendation—binding on the district court
if accepted by the district court—of an “effective” sentence of 100 months’ imprisonment (and a
three-year term of supervised release). (R. 46 at 8). The plea agreement also contemplated that by
the time of sentencing, Petitioner would have accrued two months’ credit to be deducted from the

1 References below to “R.” are to the docket numbers in the underlying criminal case, No. 3:16-cr-00133,
over which the undersigned did not preside at any point.

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 2 of 18 PagelD #: 139

100 months, such that the sentence to be imposed actually would be 98 months. (Id. at n.l).2 The
plea agreement also set forth the factual basis for the plea of guilty, which read as follows:
On May 10, 2016, Metropolitan Nashville Police Department (MNPD)
detectives were in the area of Fallbrook Apartments, located at 345 Dellway Villa
Road, Nashville, Tennessee, looking for a suspect who had just fled from officers
on foot. While searching a wooded area for this suspect, MNPD detectives began
hearing gunfire near building "G." Christopher Jermaine Kelley, the defendant, was
observed by an MNPD detective firing a pistol in an exchange of gunfire with an
unknown individual or individuals near the "G" building. The detective observed
that he [sic] pistol in Kelley's hand had an extended magazine.
Once the gunfire stopped, Kelley and another black male, later identified as
David Antwan Frazier, ran to a red 2014 Chevy Impala. MNPD detectives ordered
Kelley and Frazier to stop. However, Kelley and Frazier jumped inside the Impala.
Kelley, the driver, then put the car in reverse and began to back away. Kelley and
Frazier, who was the only passenger, then jumped out of the moving Impala and
ran toward the woods. After a brief foot pursuit, both Kelley and Frazier were taken
into custody.
In the aforementioned Impala, MNPD detectives observed a Glock, Model
22, .40 caliber pistol with an extended magazine on the driver's seat that was the
handgun Kelley was observed possessing. The Glock pistol was loaded and had an
obvious "double-feed" malfunction, consistent with jamming while being fired. A
records check of the Glock pistol revealed that it had been reported stolen out of
Sumner County in 2007. Another pistol was also recovered from the Impala to
which Kelly denies possession, control, or ownership at any time.
A criminal history check of Kelley revealed that at the time of this offense,
he had multiple felony convictions in Tennessee, including the following:
• Attempted Second Degree Murder in case number 270107 in the Criminal
Court of Hamilton County, with the disposition date of March 23, 2010, for which
he received a sentence of eight (8) years incarceration.
• Aggravated Assault in case number 250985 in the Criminal Court of
Hamilton County, with the disposition date of August 24, 2006, for which he
received a sentence of four (4) years incarceration.
• Robbery in case number 270658 in the Criminal Court of Hamilton
County, with the disposition date of March 23, 2010, for which he received a
sentence of three (3) years incarceration.

2 It appears that the parties intended the sentence to be 100 months, minus credit for all time served from the
time Petitioner was to be transferred to federal custody from state custody (forecast in the plea agreement to be July
11, 2017) until the time of sentencing. (R. 46 at 8 n.l).

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 3 of 18 PagelD #: 140

A Bureau of Alcohol, Tobacco, Firearms and Explosives Interstate Nexus
Expert, has determined the Glock pistol is a firearm, as defined by 18 U.S.C. §
921 (a)(3), and that the firearm was not manufactured in the State of Tennessee; and,
therefore, at some point in time, traveled in and affected interstate or foreign
commerce.
(R. 46 at 3-5) (emphasis added).3 Notably, the original plea agreement as executed and submitted
to the Court contained handwritten additions (highlighted above in bold) inserted around where
certain original language had been typed before, quite plainly, being rejected by Petitioner as
inaccurate. Where the old language had been crossed out and new language had been inserted
(obviously at Petitioner’s request), the initials of Petitioner and counsel for both sides appear, thus
tending to show that considerable attention was paid by all to the language in the factual basis.
Moreover, this language was read, virtually verbatim, by the prosecutor (Mr. Lee) at the
plea hearing on May 16, 2017. (R. 115 at 13-15). Thereafter, Petitioner confirmed the accuracy of
what Mr. Lee had read:
THE COURT: Mr. Kelley, was everything that Mr. Lee just read into the
record true and accurate?
MR. KELLEY: Yes, sir.
(Id. at 15).
At sentencing on September 27, 2017, the Court accepted the parties’ sentencing
recommendation and, accordingly sentenced Defendant to 97 months, having given Defendant
three months’ credit instead of two as originally contemplated.4
Petitioner did not appeal his conviction or sentence.

3 Pertinently, as discussed below, the conviction for aggravated assault was for reckless aggravated assault
in particular, as made clear in paragraph 37 of the Presentence Investigation Report, and prior counsel was well aware
of this fact and its importance. (Doc. No. 26-1 at 3).
4 This appears to be because the late September sentencing was approximately a month later than the
“August/September” timeframe the parties had anticipated. (R. 46 at 8 n.l).

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 4 of 18 PagelD #: 141

LEGAL STANDARD
To prevail on a § 2255 motion, a petitioner must demonstrate that the court imposed the
sentence in violation of the Constitution, the court was without jurisdiction to impose such a
sentence, the sentence was more than the maximum sentence authorized by law, or the sentence is
otherwise subject to collateral attack. See 28 U.S.C. § 2255 (2018). Section 2255 requires “a
hearing on such allegations unless the motion and the files and records of the case conclusively
show that the prisoner is entitled to no relief.” Fontaine v. United States, 411 U.S. 213, 215 (1973)
(internal quotation marks omitted); Ray v. United States, 721 F.3d 758, 760-61 (6th Cir. 2013);
see also Dagdagv. UnitedStates, No. 3:16-cv-364-TAV, 2019 WL 2330274, at *1 n.l (E.D.Tenn.
May 31, 2019) (internal quotation marks omitted) (citing Arredondo v. United States, 178 F.3d
778, 782 (6th Cir. 1999)) (“[Wjhere the record conclusively shows that the petitioner is entitled to
no relief, a hearing is not required.”).
A petitioner is not entitled to an evidentiary hearing if he has not alleged any facts that, if
true, would entitle the petitioner to federal habeas relief. See McSwain v. Davis, 287 F. App’x 450,
458 (6th Cir. 2008). Even when material facts are in dispute, an evidentiary hearing is unnecessary
if the petitioner is conclusively entitled to no relief. See Amr v. United States, 280 F. App’x 480,
485 (6th Cir. 2008). “Stated another way, the court is not required to hold an evidentiary hearing
if the petitioner’s allegations cannot be accepted as true because they are contradicted by the
record, inherently incredible, or conclusions rather than statements of fact.” Id.; accord Arredondo,
178 F.3d at 782. The decision whether to hold an evidentiary hearing is one committed to the sound
discretion of the district court. Huffv. UnitedStates, 734 F.3d 600,607 (6th Cir. 2013) (“A decision
not to hold an evidentiary hearing on a motion for relief under 28 U.S.C. § 2255 is reviewed for
abuse of discretion.”).

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 5 of 18 PagelD #: 142

The applicable rules address what the district court may (and must) consider in determining
whether to order an evidentiary hearing, where (as here) the motion is not dismissed under Rule
4(b) based on the district court’s initial review:
If the motion is not dismissed, the judge must review the answer, any
transcripts and records of prior proceedings, and any materials submitted under
Rule 7 to determine whether an evidentiary hearing is warranted.
Rule 8(a), Rules Governing Section 2255 Proceedings. As suggested, Rule 7 permits expansion of
the record with additional materials relevant to the motion, such as letters predating the filing of
the motion, documents, exhibits, answers under oath to interrogatories, and affidavits. Rule 7(b),
Rules Governing Section 2255 Proceedings. As noted above, in this case the record has been
expanded to include a declaration from prior counsel.
DISCUSSION
The Court below addresses each of the claims in the Petition as amended. None has merit,
and none requires an evidentiary hearing.
I.

ALLEGED INEFFECTIVE ASSISTANCE OF COUNSEL

In his first and second claims, Petitioner asserts that in his underlying criminal case, he was
denied effective assistance of counsel in violation of the Sixth Amendment. A defendant has a
Sixth Amendment right to “reasonably effective assistance” of counsel. Strickland v. Washington,
466 U.S. 668, 687 (1984). “It has long been settled that a guilty plea is open to attack on the ground
that counsel did not provide the defendant with reasonably competent advice.” Hunter v. United
States, 160 F.3d 1109, 1115 (6th Cir. 1998) (internal quotation marks omitted). In Strickland, the
Supreme Court put forth a test to evaluate claims of ineffective assistance of counsel:
First, the defendant must show that counsel’s performance was deficient. This
requires showing that counsel made errors so serious that counsel was not
functioning as the “counsel” guaranteed the defendant by the Sixth Amendment.
Second, the defendant must show that the deficient performance prejudiced the

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 6 of 18 Page ID #: 143

defense. This requires showing that counsel’s errors were so serious as to deprive
the defendant of a fair trial, a trial whose result is reliable. Unless a defendant makes
both showings, it cannot be said that the conviction ... resulted from a break down
in the adversary process that rendered the result unreliable.
Strickland, 466 U.S. at 687. Under the first prong of the Strickland test, a petitioner must establish
that his attorney’s representation fell below an objective standard of reasonableness. Id. at 688.
“[A] court must indulge a strong presumption that counsel’s conduct falls within the wide range
of reasonable professional assistance . ...” Id. at 689. Strategic choices made by counsel after
thorough investigation are virtually unchallengeable. Id. at 690. Petitioner bears the burden of
proving by a preponderance of the evidence that counsel was deficient. See Short v. United States,
471 F.3d 686, 691 (6th Cir. 2006) (citing Pough v. United States, 442 F.3d 959, 964 (6th Cir.
2006)).
In “Ground One” and “Ground Two,” Petitioner claims that prior counsel’s performance
was deficient (Doc. No. 1 at 4, 5). Each ground which will be addressed in sequence.
In connection with Ground One, Petitioner claims that prior counsel was ineffective during
“the plea stage” because prior counsel allegedly: (1) failed to conduct adequate pretrial
investigation, in particular investigation “on the officers who allegedly witnessed him in
possession of the firearm” (Doc. No. 1 at 15);5 and (2) improperly “push[edj” Petitioner to plead
guilty rather than go to trial, essentially by “adamantly us[ing]” the prospect of sentencing under
the Armed Career Criminal Act (“ACCA”)—which carries a sentence of between 15 years and life
imprisonment—to persuade Petitioner to plead guilty to avoid possible sentencing under the
ACCA {id. at 15-17).

5 The Government did not address this complaint, apparently for some reason not recognizing that it was part
of Petitioner’s grievance about prior counsel’s performance during what Petitioner calls “the plea stage,” by which he
means the period up to and including his entering a guilty plea.

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 7 of 18 PagelD #: 144

The Court will resolve this set of of complaints by addressing in turn each of prior counsel’s
three alleged failings.
As for the first complaint, that prior counsel failed to conduct adequate pretrial
investigation, the Court rejects it without need of an evidentiary hearing because it cannot be
accepted as true, being a mere conclusion unsupported by statements of fact. The closest Petitioner
gets to alluding to any supporting facts is when he refers in passing to asking his prior counsel to
bring him a videotape of the alleged incident, i.e., “the videotape of me ‘allegedly’ running from
the officers,” which Petitioner wanted because he “was concerned about proving my innocence
that I never had any firearm, and I explained to my lawyer that the officers had planted the gun.”
(Doc. No. 1 at 31). At best, this is an attempt to claim that prior counsel somehow should have
done more with (and followed up more on) the videotape to establish that Petitioner was innocent
and had been framed.6 But with this generous interpretation of Petitioner’s words here, he fails to
state a claim, because he offers no explanation of the steps prior counsel should have taken, why
he should have known to take them, and what they would (or even might) have accomplished.
And in fact, it is entirely clear that unless Petitioner perjured himself at the plea hearing,
any such investigation would have accomplished nothing. As Petitioner himself admitted at the
plea hearing, he was not framed and the gun was not planted; instead, the prosecutor got it right
when he described how Petitioner was “firing a pistol in an exchange of gunfire with an unknown
individual or individuals,” using “a dock, Model 22, .40 caliber pistol with an extended magazine
[later found] on the driver's seat” in the Chevy Impala. (R. 46 at 3-5; R. 115 at 13-15). Failing to
do an investigation to establish a non-existent frame job by police could not possibly have hurt

6 Petitioner’s claim cannot be that prior counsel was deficient for not obtaining the videotape, not analyzing
the videotape, and not discussing the videotape with Petitioner; Petitioner makes clear that prior counsel did all of
these things, as Petitioner describes prior counsel characterizing for Petitioner what the videotape shows. (Doc. No. 1
at 32).

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 8 of 18 PagelD #: 145

Petitioner’s defense, because there was nothing for such an investigation to reveal. Even assuming
arguendo that Petitioner could satisfy step one of the Strickland analysis here (which he cannot do
with his mere conclusory allegations), he would fail to satisfy step two because any investigative
deficiencies did not prejudice Petitioner by depriving him of a fair trial with a reliable result. In
short, Petitioner’s claim of any inadequate pre-plea investigation, and especially any prejudicial
lack of pretrial investigation, is wholly conclusory and belied by the record, and thus entirely
without merit.
That leads to Petitioner’s second complaint, that prior counsel improperly persuaded
Petitioner to plead guilty by raising the specter of (greatly) increased sentencing under the ACCA
if Petitioner were to go to trial. Petitioner7 and his prior counsel both make clear in their respective
declarations that prior counsel explained that sentencing under the ACCA would occur only if the
Supreme Court’s opinion in United States v. Voisine, 136 S. Ct. 2272 (2016) (holding that the
crime of reckless domestic assault qualifies as a “misdemeanor crime of violence” for purposes of
18 U.S.C. § 922(g)(9)), decided 12 days after Petitioner was indicted, resulted in a change in Sixth
Circuit case law that would bring Petitioner’s sentencing within the ambit of the ACCA whereas
previously it had not been. As prior counsel explains it, the issue was whether Voisine would cause
the Sixth Circuit to change its view on whether the Tennessee crime of reckless aggravated assault
constitutes a “violent felony” for purposes of the ACCA; if so, this almost surely would render
Petitioner subject to sentencing under the ACCA based on his prior conviction for reckless
aggravated assault (Doc. No. 26-1 at 3). 8

7 Petitioner’s declaration is found at Doc. No. 1 at 31-32.
8 Under the ACCA, a defendant convicted of a violation of 18 U.S.C. § 922(g) receives a mandatory minimum
15-year sentence (with a maximum of life imprisonment) if, prior to the violation, he or she had at least three previous
convictions for either a “violent felony” or a “serious drug felony,” committed on occasions different from one another.

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 9 of 18 PagelD #: 146

Accordingly, as prior counsel explains it, he was very concerned about any such change in
the law happening before Petitioner was sentenced. {Id. at 3-4, 6).9 In other words, Petitioner had
a substantial incentive to be sentenced based on then-current case law, before it potentially
changed, rather than risk sentencing under case law as potentially changed in the future. And one
way to achieve that would be to negotiate an agreed sentencing recommendation under Rule
11(c)(1)(C) based on then-current case law, before it changed. In that scenario, provided that the
Court accepted such agreement (a substantial likelihood, experience shows), the Rule 11(c)(1)(C)
agreement would serve to protect Petitioner from potential sentencing under the ACCA brought
about by a subsequent change in case law based on Voisine.
And as it turned out, prior counsel was on to something. The law was about to change in a
way that most likely would render Petitioner’s prior conviction for reckless aggravated assault a
(third) crime of violence for purposes of the ACCA. Less than two years after Petitioner pled
guilty, in Dillard v. United States, 768 F. App’x 480 (6th Cir. 2019), a case involving reckless
aggravated assault, the Sixth Circuit held that “[rjecklessness [i]s [sufficient [u]nder the ACCA.”
Id. at 487. In summary, prior counsel was prescient, not deficient, in advising Petitioner based on
the view that time could be running out on Petitioner’s ability to be sentenced without application
of the higher sentencing range of the ACCA.

The Court gleans that prior counsel (correctly) believed that Petitioner already had two prior qualifying convictions—
two violent felonies in the Criminal Court of Hamilton County, one for Attempted Second Degree Murder in case
number 270107, and the other for Robbery in case number 270658—and that the issue was whether his conviction for
(reckless) aggravated assault would count as a third “violent felony” conviction.
9 To the extent that the Court relies herein on prior counsel’s representations, it has done so only after
determining that those representations are credible, based on numerous factors: prior counsel’s incentive not to expose
himself to criminal liability for submitting knowingly false sworn statements; his underwhelming (if not entirely non­
existent) motive to defend his actions by lying at the expense of his former client; the fact that his defense of his
actions is measured and not hyperbolic; the fact that prior counsel quite patently understands what he is talking about,
and the fact that such representations do not conflict with Petitioner’s version of events.

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 10 of 18 PagelD #: 147

The Court does not discern where Petitioner specifically claims that prior counsel’s
concerns were objectively unfounded or otherwise inappropriate, or that prior counsel’s
performance was deficient because he had these concerns. Petitioner certainly does not explain
why or how such concerns were unfounded or reflective of deficient performance. And in fact they
were* no such thing. Rather than performing deficiently, prior counsel was acting objectively
reasonably—even admirably—in spotting this issue and discussing it with Petitioner, and
incorporating it into his strategic advice. There is no merit to any conclusory assertion that prior
counsel was ineffective because he dissuaded Petitioner from going to trial based on (supposedly)
unwarranted fears about a bad outcome resulting from a possible change in the law.
Petitioner also complains about the alleged pressure that prior counsel placed on him to
plead guilty. But this complaint falls flat because it is completely belied by the record. Counsel’s
letter to Petitioner less than four weeks prior to his guilty plea shows balanced advice as to whether
to plead guilty, not pressure to plead guilty. (Doc. No. 26-1 at 19). Moreover, in his plea
agreement, Petitioner averred: “I have read this Plea Agreement and carefully reviewed every part
of it with my attorney. I understand this Plea Agreement, and I voluntarily agree to it.” (R. 46 at
12). Petitioner signed this document, (id.), and swore to the Court he had read it and had no
questions regarding it. (R. 115 at 6). As the Government notes, Petitioner also stated (under oath)
both that he was satisfied with prior counsel’s advice and service and had had all of his questions
about the case answered by prior counsel, (id.), which would not be the case if Petitioner felt that
prior counsel was dragging him to a guilty plea against his will and/or with lingering questions
about the desirability of pleading guilty. Likewise, when asked whether “anyone has tried to force
[him] to plead guilty by any mistreatment or pressure,” Petitioner unequivocally answered in the
negative. (Id. at 12). Immediately thereafter, Petitioner answered unequivocally in the affirmative

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 11 of 18 PagelD #: 148

when asked whether he was “pleading guilty freely and voluntarily to Count One because [he is]
guilty and it is [his] choice to plead guilty here today?” (Id.). Thus, the Court finds, without the
need of an evidentiary hearing at which Petitioner perversely proposes to establish that he was
untruthful to the Court at his plea hearing, that prior counsel’s performance was not deficient in
that it involved undue pressure to plead guilty.
In connection with Ground Two, Petitioner asserts that prior counsel was ineffective
because he “allowed” Petitioner to plead guilty to knowingly violating Section 922(g)(1), even
though one element of such knowing violation was missing. In particular, according to Petitioner,
the Glock firearm at issue was not “in and affecting commerce” as required for conviction. This
contention is frivolous. The record shows conclusively that a factual basis was established for the
proposition that the firearm was “in and affecting commerce” inasmuch as it was manufactured
outside the state of Tennessee. Further, the record establishes that Petitioner agreed with this
proposition and knew that a factual basis had been presented to establish it. On this point, the
Government writes:
[T]he plea agreement and transcript of the plea hearing clearly establish that
Kelley voluntarily pled guilty with a full understanding of the elements of the
offense, and that the charged firearm was manufactured outside the state of
Tennessee.
A review of the plea agreement signed by Kelley reveals that in the factual
basis contained at the end of paragraph 8, an interstate nexus expert concluded that
the, “firearm was not manufactured in the State of Tennessee; and, therefore, at
some point in time, traveled in and affected interstate or foreign commerce.” ([R.
46 at 5], Plea Agreement).
Furthermore, during the plea hearing, the factual basis was read in Court,
and Kelley acknowledged that the firearm was manufactured outside of Tennessee:
AUSA Lee: A Bureau of Alcohol, Tobacco, Firearms and
Explosives Interstate Nexus Expert has determined that the
aforementioned Glock pistol is a firearm as defined by Title 18
U.S.C. Section 921(a)(3), and that the firearm was not manufactured

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 12 of 18 PagelD #: 149

in the state of Tennessee and therefore at some point in time traveled
in and affected interstate or foreign commerce.
Court: Mr. Kelley, was everything that Mr. Lee just read
into the record true and accurate?
Kelley: Yes, sir.
([R. 115 at 15], Plea Hearing Transcript).
Kelley’s argument rests on his position that the PSR states that the charged
firearm was manufactured in Tennessee. Indeed, paragraph 8 of the PSR states the
following: “An interstate nexus expert with the Bureau of Alcohol, Tobacco,
Firearms, and Explosives determined that the firearm possessed by Kelley was
manufactured in the state of Tennessee, thus affecting interstate or foreign
commerce.” In this instance, the U.S. Probation Officer who prepared the PSR
acknowledges a typographical error; and the U.S. Probation Officer prepared a
memorandum with that explanation for the difference between the wording in the
PSR and the wording in the plea agreement regarding interstate commerce. (See
[Doc. No. 26-2], memorandum from U.S. Probation Officer).
(Doc No. 26 at 7-8). The Government here has it exactly right. And it might have added that the
Court cannot grant relief under Section 2255 based on a mere and obvious typographical error of
an employee of the judicial branch (which is what a U.S. Probation Officer is), particularly one
that is contradicted by everything else relevant in the record. The Court also might have noted that
everyone at the plea hearing was fully aware that (based on the firearm at issue being manufactured
outside Tennessee) the Government was specifically claiming that it could satisfy the element of
“in and affecting commerce.” (R. 115-116). It is not as if this element simply slipped through the
cracks, was forgotten, and thus went unestablished. To the contrary, this element was clearly and
adequately addressed.
The Court also notes in passing that there is no basis whatsoever to believe that the Austrian
arms manufacturer at issue, Glock, manufactures firearms in Tennessee. To the contrary, it is well
nigh judicially noticeable that Glock does no such thing, although the Court need not take judicial
notice of this fact to reject Petitioner’s claim.

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 13 of 18 PagelD #: 150

To summarize, each of Petitioner’s claims of ineffective assistance of counsel is without
merit.
II.

ALLEGED ERROR IN APPLYING BASE OFFENSE LEVEL OF 26
PURSUANT TO U.S.S.G. § 2K2.1(a¥U

Petitioner expressly did not waive his right to bring a Section 2255 motion based on ineffective
assistance of counsel. And this Court will not construe his waiver of his right to bring a Section 2255
attack to apply to any claim that he was sentenced for something that was not actually a criminal
offense; for this reason, the Court below addresses Petitioner’s Rehaif claim without reference to its
being waived. But sentencing is another matter. In his plea agreement, Petitioner expressly waived his
right to appeal the sentence imposed (to the extent that, as in this case, the sentence was imposed based
on a valid conviction):10
Regarding sentencing, Defendant is aware that 18 U.S.C. § 3742 generally affords a
defendant the right to appeal the sentence imposed. Acknowledging this, defendant
knowingly waives the right to appeal any sentence of 98 months in the custody of the
Bureau of Prisons, followed by 3 years supervised release, as set forth in this
agreement. Defendant also knowingly waives the right to challenge the sentence
imposed in any motion pursuant to 18 U.S.C. § 3582(c) and in any collateral attack,
including, but not limited to, a motion brought pursuant to 28 U.S.C. § 2255 and/or §
2241.
(R. 46 at 10). At the plea hearing, the Court read Petitioner this language verbatim, and he said he had
no questions about it. (R. 115 at 11). As noted above, Petitioner indicated in the plea agreement itself
that he had read it, understood it, and agreed to its terms. Petitioner thus knowingly and voluntarily
waived his right to challenge his sentence via this Section 2255 motion.11

10 As suggested in the sentence immediately prior to the sentence that appended this footnote, the Court
conditions Petitioner’s waiver of the right to challenge his sentence upon Petitioner validly being convicted; in other
words, to the extent that Petitioner would be able in this Section 2255 action to have his conviction overturned, his
sentence naturally likewise would be overturned despite his waiver of the right to challenge his sentence. But as
explained herein, Petitioner has not shown any basis to overturn his conviction. Thus, the question is whether
Petitioner has waived his right to challenge the sentence he received for that (valid) conviction. And as noted herein,
he expressly and validly waived such right.
11 It is of no moment that the sentence imposed was 98 months rather than 97 months. The waiver applies
anyway because: (1) the waiver of the right to appeal a 98-months sentence cannot reasonably be construed to allow

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 14 of 18 PagelD #: 151

Alternatively, Petitioner’s challenge to his sentence is without merit in any event. First,
his base offense level was correctly determined. Petitioner was allocated a base offense level of 26
under U.S.S.G. § 2K2.1(a)(1) based on his having two felony convictions of either a crime of
violence or a controlled substance offense; only two are required under U.S.S.G. § 2K2.1(a)(1).
As the Government notes, paragraph 15 of the Presentence Investigation Report (PSR) set forth
the two convictions that brought him within the scope of U.S.S.G. § 2K2.1(a)(1):

a 2006

conviction for possession of marijuana for resale, and 2010 convictions for attempted second
degree murder and robbery (which together count as a single conviction because sentence was
imposed on them on the same day, as noted in the PSR).12 This suffices to trigger application of
U.S.S.G. § 2K2.1(a)(1), with its base offense level of 26. Petitioner takes pains to argue that his
conviction for (reckless) aggravated assault does not count as a “crime of violence” for purposes
of U.S.S.G. § 2K2.1(a)(1). This contention is irrelevant even if true, however, because (entirely
and obviously contrary to Petitioner’s claim) Petitioner’s reckless aggravated assault conviction
was not counted, and instead the conviction the possession of marijuana for resale conviction was
counted. Even without the conviction for reckless aggravated assault, Petitioner has the required
number of qualifying convictions—two—to have a base offense level of 26 under U.S.S.G. §
2K2.1(a)(1).
There is another alternative reason, not referenced by the Government, why Petitioner
would not be entitled to resentencing based on an alleged improper calculation of his guidelines

an appeal of a 97-month sentence, which is of course more favorable to a defendant than is a 98-month sentence; (2)
the 97-month sentence effectively is the 98-month sentence, albeit adjusted one month due to sentencing occurring
roughly a month later than anticipated; and (3) the waiver of the right to challenge the sentence via a Section 2255
motion, unlike the waiver of the right to challenge the sentence via an appeal, is not limited in scope to sentences of
98 months.
12 The PSR has not been unsealed in this case, and the very limited (though highly relevant) references herein
to the PSR are not intended to have the effect of unsealing the PSR with respect to any information not specifically
referenced herein.

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 15 of 18 PagelD #: 152

had he not waived his right to seek resentencing. The parties’ plea agreement under Fed. R. Crim.
P. 11(c)(1)(C) provided, just before stating the parties’ agreement to an offense level calculated
primarily based on application of U.S.S.G. § 2K2.1(a)(6), that “the parties understand that the
sentence agreed to herein is not dependent on these calculations.” (R. 46 at 5). Copious authority
from various federal appellate courts supports the notion that “a sentence imposed pursuant to a
Rule 11(c)(1)(C) plea agreement may be reviewed . .. only where that ‘agreement expressly uses
a Guidelines sentencing range applicable to the charged offense to establish the term of
imprisonment.’” United States v. Williams, 811 F.3d 621, 624 (4th Cir. 2016) (quoting Freeman
v. United States, 564 U.S. 522,131 S. Ct. 2685,2695 (2011)). This is because “a sentence imposed
pursuant to a Rule 11(c)(1)(C) plea agreement is generally based on the agreement and not the
Guidelines.” Id. (citing Freeman, 131 S. Ct. at 2695 (Sotomayor, J., concurring in the judgment)).
That is the case here. As Petitioner’s sentence was expressly based on his Rule 11(c)(1)(C)
agreement and not on his guideline calculations, the alleged error in applying U.S.S.G. §
2K2.1(a)(1) in making those calculations is simply not grounds for relief.
III.

REHAIF-BASED ARGUMENT

In his Supplemental Brief, Petitioner takes one final shot at relief, claiming that his
conviction must be set aside under Rehaif. In Rehaif, the Supreme Court held that a “knowing”
violation of Section 922(g)—i.e., a violation of a Section 922(g) that is subject to a maximum
prison term of ten years pursuant to 18 U.S.C. § 924(a)(2) because it was done “knowingly”—
requires the defendant to know that (s)he had the relevant status rendering possession of the firearm
illegal when (s)he possessed the firearm. See 139 S. Ct. at 2200. Here, the relevant status is felony
status, i.e., having previously been convicted of a crime punishable by imprisonment for a term
exceeding one year.

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 16 of 18 PagelD #: 153

Petitioner essentially asserts that there is a clear error of law in the judgment because the
Government failed to allege in the Indictment, or provide at the plea hearing a factual basis to
establish, the “knowledge of status” element as required for conviction.13
Rehaifwas decided more than two years after Petitioner’s plea of guilty and approximately
twenty months after Petitioner’s conviction became final after sentencing. Petitioner claims, with
virtually no explanation, that Rehaif is retroactively applicable on this Motion. Such claim of
retroactivity consistently has been rejected by courts in this circuit, including this Court. See
Dowlen v. United States, No. 3:16-cv-00676, 2020 WL 489460, at *2 (M.D. Tenn. Jan. 30, 2020)
(Trauger, J.) (collecting cases). As noted just two months ago by anther district court in Tennessee,
‘“[wjhile the Sixth Circuit has not yet addressed’ Rehaifs retroactivity, this Court agrees with the
district court decisions in this Circuit holding that the ruling in Rehaif does not apply retroactively
to cases on collateral review.” Wright v. United States, No. 116CV01080JDBJAY, 2020 WL
718237, at *2 (W.D. Tenn. Feb. 12, 2020) (quoting Dowlen, 2020 WL 489460, at *2). The
undersigned likewise agrees. And to the extent that Petitioner here purports to make less of a claim
based on Rehaif alone but rather a freestanding claim of actual innocence based on Rehaif, such
claim likewise is not cognizable on this collateral attack. See id. (“[A] freestanding claim of actual
innocence is not cognizable on collateral review.”) (quoting Avery v. United States, No. 17-5473,
2017 WL 9248941, at *3 (6th Cir. Nov. 13, 2017)); Cress v. Palmer, 484 F.3d 844, 854 (6th Cir.
2007) (§ 2255 petitioner’s “freestanding actual-innocence claim . . . was subject to dismissal as

13 Petitioner also claims, that he in fact “did not know that he belonged to the relevant category of persons
barred from possessing a firearm . . . .” (Doc. No. 27 at 10). This is a very unconvincing claim; given his service of
almost six (consecutive) years in prison (for only two counts of conviction, i.e., attempted second degree murder and
robbery) prior to the firearm possession involved in this case, one wonders how it is that he would not know that he
belonged to the category of persons “previously convicted of a crime punishable by imprisonment for a term exceeding
one year.” But in any event, the Court does not believe that any cognizable Rehaif claim would require Petitioner to
show that he lacked such knowledge of status, and his Rehaif claim here certainly does not fail because he actually
had knowledge of status. Instead, the problem with Petitioner’s Rehaif claim is that it is not cognizable on this
collateral attack.

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 17 of 18 PagelD #: 154

not cognizable”); United States v. May, No. 3:16-cr-127,2019 WL 7169132, at *2 (S.D. Ohio Dec.
22, 2019) (report and recommendation) (freestanding actual innocence claim based on Rehaifwas
non-cognizable in § 2255 proceeding (citing Herrera v. Collins, 506 U.S. 390, 408-11 (1993))).
Rehaif, and any related freestanding claim of actual innocence, thus afford Petitioner no
grounds for relief.
CONCLUSION
For the reasons stated herein, none of Petitioner’s claims have merit or entitle Petitioner to
an evidentiary hearing. Petitioner’s Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or
Correct Sentence, (Doc. No. 1), as supplemented via the Supplemental Brief (Doc. No. 27), will
be DENIED, and this action will be DISMISSED.
An appropriate Order will be entered.

ELI RICHARDSON
UNITED STATES DISTRICT JUDGE

Case 3:18-cv-00908 Document 29 Filed 04/15/20 Page 18 of 18 PagelD #: 155

IN THE UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
CHRISTOPHER J. KELLEY
Petitioner,

)
)
)

)
v.

NO. 3:18-cv-00908

)

)
UNITED STATES OF AMERICA,
Respondent

JUDGE RICHARDSON

)
)
)

ORDER
Pending before the Court is a Motion Under 28 U.S.C. § 2255 To Vacate, Set Aside, Or
Correct Sentence (Doc. No. 1) filed by the Petitioner. The Government filed a response in opposition
to the Petition (Doc. No. 26), as well as a declaration of Petitioner’s prior counsel (Doc. No. 26-1).
Petitioner subsequently filed what he captioned in pertinent part as a “Supplemental Brief” (Doc.
No. 27). The Court has reviewed these filings and the record.
For the reasons set forth in the accompanying Memorandum Opinion, the Petition (Doc. No.
1) and Supplemental Brief (Doc. No. 27) are DENIED, and this action is DISMISSED.
This Order shall constitute the judgment in this case pursuant to Fed. R. Civ. P. 58.
Should Petitioner give timely notice of an appeal from this Order, such notice shall be treated
as an application for a certificate of appealability, 28 U.S.C. § 2253(c). A district court may make a
decision as to a certificate of appealability at the time it denies a § 2255 petition, even though the
petitioner has yet to make an effective request for such a certificate by filing a notice of appeal (or
otherwise). See Castro v. United States, 310 F.3d 900,902 (6th Cir. 2002). “To obtain a COA under
§ 2253(c), a habeas prisoner must make a substantial showing of the denial of a constitutional right,
a demonstration that, under Barefoot, includes showing that reasonable jurists could debate whether

Case 3:18-cv-00908 Document 30 Filed 04/15/20 Page 1 of 2 PagelD #: 156

(or for that matter, agree that) the petition should have been resolved in a different manner or that the
issues presented were ‘adequate to deserve encouragement to proceed further. Slack v. McDaniel,
529 U.S. 473, 483-84 (2000) (quoting Barefoot v. Estelle, 463 U.S. 880, 893 & n.4 (1983)). In this
case, a certificate of appealability will not issue from this Court, because Petitioner has failed to
make a substantial showing of the denial of a constitutional right.
IT IS SO ORDERED.

ELI RICHARDSON
UNITED STATES DISTRICT JUDGE

Case 3:18-cv-00908 Document 30 Filed 04/15/20 Page 2 of 2 PagelD #: 157

